R

L

Supreme Court. U.S.
FILED

/
i

No.

JUL 0 6 2021
OFFICE OF THE CLERK

IN THE SUPREME COURT OF THE UNTED STATES
BRIAN DUNKLEY,
PETITIONER,
V.
SHAWN PHILLIPS, WARDEN,
RESPONDENT.
ON PETITION FOR WRIT OF CERTIORARI TO
THE SIXTH CIRCUIT COURT OF APPEALS
PETITION FOR WRIT OF CERTIORARI

Submitted by,
Brian Dunkley, 487273
BCCX, Site 2, Unit 5
1045 Horsehead Rd.
PikevTlle, TN. 37367

RECEIVED
JUL 1 3 2021

QUESTION PRESENTED

Whether the Sixth Circuit Court of Appeals has entered a decision
in conflict with decisions of another United States court of
Appeals on the same important matter as to call for an exercise
of this Court's supervisory power; whereby, the Sixth Circuit
Court of Appeals used what is known as the "burden" approach,
which is in conflict with the "presumption" approach used by
some Circuits,' to determine that even though Dunkley's counsel
provided deficient performance for not advising him of her belief
that he should accept an offered plea, that he didn't meet the
.prejudice prong of

Strickland because he did not prove with

reasonable probability that the prosecutor would have maintained
the offered plea and that the trial court would have accepted
it, which Dunkley contends violates his right to due-process
in that the "burden" approach is an unfair process based on
retrospective predictions of what others might of done, not an
a legal analysis.

i.

TABLE OF CONTENTS

Question presented....................................................................

i

Table of Contents......................................................................

ii

Table of Authorities...............................................................

iii

Opinion Below................................................................................

1

Jurisdiction..................................................................................

1

Statutoru and Constitutional Provisions Involved

1

Statement of Case......................................................................

3

Reasons for Granting the Writ..........................................

7

Conclusion.......................................................................................

15

Appendix:
Table of Contents

i

n.

TABLE OF AUTHORITY
Fe d e r a 1 Cas e s :
1.
2.

Arnold v. Thaler, 630 F.3d 367 (5th Cir. 2010)
Lafler v. Cooper, 566 U.S. 156 (2012).................

3.

Missouri v. Frye, 556 U.S. 134 (2012).................

4.
5.

Strickland v. Washington, 466 U.S. 668 (1994)
U.S. v. Rodriguea, 929 F.2d 747 (1st Cir. 1991)

11

6.

Wanatee Y • Ault, 259 F.3d 700 (8th Cir. 2010)...

11

11
4.8-9,11,13
8-14
4.8-9,3-14

State Cases:
1.
2.

Dunkley v. Philllips, No. 20-6221 (6th Cir. 4/2021).. 7i
State v. Dunkley, M2012-00548-CCA-R3-CD......................................
5,7

3.

Stateov. Dunkley,

2017 WL 2859008..................................................

iii.

3

PETITION FOR WRIT OF CERTIORARI TO
THE SUPREME COURT OF THE UNITED STATES
The Petitioner, Brian Dunkley, respectfully prays that
a Writ of Certiorari be granted to review the judgment and
opinion of the Sixth Circuit of Appeals, who rendered the
final decision in these proceedings on April 22, 2021.

OPINION BELOW
The Sixth Circuit of Appeals affirmed Petitioner's
conviction in its case No. 20-6221. The opinion is enclosed
in the appendix herein. The order of the Sixth Circuit Court
of Appeal's denying the Motion for Reconsideration en banc was
dated

June 17. 2021

JURISDICTION
The decision of the Sixth Circuit of Appeals was entered
on April 22,

2021. A timely Motion for Reconsideration en banc

was denied on 06/17/2021 (enclosed in the Appendix herein).

STATUTORY AND CONSTITUTIONAL PROVISIONS INVOLVED
The following statutory and constitutional provisions are
involved in this case:
U.S.Const., Amend. VI:
In all criminal prosecutions, the accussed shall enjoy
the right to a speedy and public trial, by an impartial jury
of the state..., and to be informed of the nature and cause
of the accusation; to be confronted with the witness against
him; to have compulsory process for obtaining witness in his

1.

favor, and to have assistance of counsel for his defense.
U.S.Const., Amend. XIV:
Section 1. All persons born or naturalized in the U.S.,
and subject to the jurisdiction thereof, are citizens of the
U.S. wherein they reside, no state shall make or enforce any
law which shall abridge the privilege or immunities of citizens
of the U.S.; nor shall any state deprive a person of life,
liberty, or property, without due process of law; nor deny to
any person within its jurisdiction the equal protection of the
law. 28 U.S.C. 2254.

2.

STATEMENT OF CASE

In 2011, a jury convicted Dunkley of conspiracy to commit
first-degree murder, in violation of Tennessee Code Annotated
sections 39-12-103 and 39-13-202. The conviction stemmed from
Dunkley's efforts to arrange the murder of his then-wife. The
trial court sentenced Dunkley to 25-years of imprisonment and
denied his Motion for a new trial. The Tennessee Court of
Criminal Appeals affirmed, State v. Dunkley, No. M2012-00548- 1
CCA-R3-CD, 2014 WL 2902257 (Tenn.Crim.App. June 25, 2014), and
Tennessee Supreme Court denied him permission to appeal, on
November 16,

2017.

In 2017, Dunkley filed a section 2254 petition claiming
that:
1. His right to due process and a fair trial were violated
in various ways;
2. Insufficient evidence supported his conviction;
3. Trial counsel performed ineffectively by failing to:
* recommended that he accept a plea deal,
* Adequately argue, ! a motion to dismiss based on lost
or destroyed evidence,
* File a motion to suppress phones data from a
co-conspirator's cellphones,
* File motion to exclude phone data obtained through
judicial subpoenas, and
* Rebut the prosecution's assertion that he was
"hovering" in his vehicle near a meeting of his

3.

co-conspirations.
4. Cumulative error entitled him to relief.
After a response from the state, the district court denied
Dunkley's petition on the merits and denied him a COA.
Thereafter, Dunkley applied for a COA from the Sixth Circuit
Court ao Appeals. Dunkley seeked COA only on his claim, of
ineffective assistance of counsel.
To show that counsel performed ineffectively, a petitioner
must establish that (1) counsel performed deficiently and (2)
the deficient performance prejudiced his defense. Strickland
v. Washington, 466 U.S. 668, 687 (1984).
In sum, Dunkley seeks COA on his claim that trial counsel
performed ineffectively by failing to advice him to accept a\
; plea i off er i from the prosecution that includes a fifteen-year
sentence, which is more favorable that the twenty-five years
he was ultimately sentenced to. In the plea context, the
prejudice inquiry asks whether there is "a reasonable probability
that the outcome of the plea process would have been different
with competent advice." Lafler v. Cooper, 566 U.S.

156,

163

(2012). The prejudice inquiry also asks "whether... there is
reasonable probability that the plea offer would have been
presented to the court (i.e., that the defendant would have,
accepted the plea and the prosecution would not have withdrawn
it in light of intervening circumstances)." Id. at 164.
The Tennessee Court of Criminal Appeals evaluated this
claiimin Dunkley's postconviction appeal, noting that there was
7conflicting^testimony from the evdientiary hearing regarding

4.

whether a plea offer had been made by the prosecution.
’ Nonetheless,~ the Tennessee Court of Criminal Appeals determined
that trial counsel had performed deficiently by informing Dunkley
of the potential: offer without also advising him of her belief
that he should accept the plea. Despite this deficient
performance, the Tennessee Court of Criminal Appeals concluded
that Dunkley could not show that he had been prejudiced

because

the prosecutor's testimony at the evidentiary hearing indicated
that any plea would have been contingent on the approval of
the victim and his co-defendant's agreement to plead guilty
as well, and thus he had not shown' a reasonable probability that
the plea agreement, even if he had accepted it, would have been
presented to the trial court. Dunkley, 2017 WL 2859008, at *67. Then1, the Sixth Circuit Court of Appeals found that reasonable
jurists could not debate the district court's conclusion and
it's determination was not contrary to, or an unreasonable
application of federal law, or unreasonable determination of
the facts in light of the evidence (the state's self-serving
testimony) presented at the evidentiary hearing. Accordingly,
Dunkley's application for a COA was denied on April 22, 2021.
Dunkley filed a Motion for Reconsideration En Banc on May
4, 2021, challenging that the proceedings involved an issue
of exceptional importance, in that as part of the Strickland
prejudice prong test, in the context of deficient counsel that
leads a defendant to forgo a beneficial plea offer, were this
court requires a defendant, like Mr. Dunkley to prove with
reasonable probability that the prosecutor would have

5.

maintained an offered plea and that the trial court would hav.e„
accepted it, this is known as the "burden" approach, whicjh is
an unfair process, due process violation, based on retrospective
predictions of what others might of done posing as a leagl
analysis. In other words, Dunkley argued that the Sixth Circuit
Court of Appeals "burden" approach is unfair, a more accurate
approach that is better at protecting a defendant’s
Constitutional right to effective counsel is the "presumption"
approach, which is used in some Circuits. Jowever, the Sixth
Circuit Court of Appeals disargeed with Dunkley and denied his
Motion for Reconsideration En Banc on

6.

REASONS FOR GRANTING THE WRIT

According to trial counsel’s testimony, on the morning of
April 4,

2011 of trial, she asked the Assistant District Attorney

General about any offers to settle the case. Trial counsel stated
that the prosecutor responded with an offer to recommend a
sentence that was either at the bottom of the range for a class A
felony (15-years) or the top of the range for a class B felony
(12-years) in exchange for a guilty plea. Trial counsel spoke to
the Petitioner about the offer for approximately five (5) minutes.
During this time, she did not discuss the strength of the state's
case

the Petitioner's potential range of punishment or, why trial

counsel believed that entering a plea would be in Petitioner's
best interest.

She did not share her opinion with him, make any

recommendations regarding a plea, or ask for additional time to
consider the offer in order to have a thorough discussion with
the Petitioner. The Petitioner, with no guidance from trial
counsel,

responded he would consider serving a six (6) year

sentence . The state promptly rejected this offer, and trial
commenced." Dunkley v. State, 2017 WL 2859008, at *2-5.
The Tennessee Court of Criminal Appeals determined that trial
counsel had performed deficiently by informing Dunkley of the
potential offer without also advising him of her belief that he
should accept the plea. Despite this deficient performance, the
Tennessee Court of Criminal Appeals concluded that Dunkley could
not show that he had been prejudiced... Dunkley y . Phillips. No.
20-6221 (6th Cir. Apri .

22, 2021).

7.

THE DECISION OF THE SIXTH CIRCUIT IS IN CONFLICT
WITH THE DECISIONS OF OTHER CIRCUITS

Whether the 6th Circuit's "burden" approach, in the context of
a deficient counsel leads a defendant, like in this case, to
forgo a beneficial plea offer, that requires a defendant to
prove with reasonable probability that the prosecutor would
have maintained an offered plea and that the trial court would
have accepted it is unfair and inadequate to protect a
defendant's constitutional right to effective representation?
Hence the proceedings involve a question of exceptional importance.
Since this court has already ruled that trial counsel had
performed deficiently by informing Dunkley of the potential offer
without also advising him of her belief that he should accept the
plea, hence he has met the ineffective prong of Strickland, which
means he will proceed herein to showhow Mr. Dunkley's case, if
evaluated fairly, meets the prejudice prong of Strickland as well.
Plea bargaining dominates the modern crinimal justice system.
For instance, stats show that more than 97% of convicted defendants
in federal district courts in 2010 entered a plea, and 94% of state
felony convictions were the result of plea bargains. See http://www.
albany.edu/soucebook/pdf/t5462006.pdf[http://perma.cc/P57A-46MT];
and http://www.albany.edu/sourcebook/pdf/t5222010.pdf[http://perma.
cc/LbKK-48MX].

Constitutional safeguards, however, have only slowly

followed this fundamental shift in criminal adjudication. In Missouri
v. Frye and Lafler v. Cooper

the Supreme Court extended the Sixth

Amendment's right to counsel to situations in which deficient counsel
leads a defendant to forgo a beneficial plea agreement.
In Lafler, the court decided how to apply Strickland1s prejudice
test where ineffective assistance led to rejection of a plea offer
and the defendant was convicted at the resulting trial. See Lafler

8.

v. Cooper,_56.6_U...S__156, 163 (2012). The Court rejected the-SoiicitorGeneral's argument that no prejudice sufficient to satisfy Strickland
could exist when a defendant was subsequently convicted at a fair
trial. Id. at 164. Instead, the court held that a defendant, denied
effective cousnel while considering an offered plea agreement, can
show prejudice "if loss of the plea opportunity led to a trial
resulting in a conviction on more serious charges or the imposition
of a more severe sentence. Id. at 168.
In Frye, the Court looked instead at a situation in which a
defendant rejected better terms before later pleading guilty

and

found that the circumstances offered "strong reason to doubt the.
prosecution and the trial court would have permitted the plea
bargain to become final." Missouri v. Frye, 566 U.S. 134, 150 (2012).
Noting that a prosecutor can withdrawl an accepted plea in
Missouri, the court held that given Frye's new offense for driving
without a license...[, ] there is reason to doubt that the prosecution
would have adhered to the agreement or that the trial court would
have accepted it... Id. at 151. The court remanded the question back
down to the Missiuri courts to decide in the first instance. Id.
By applying Strickland v. Washington's

prejudice prong

in

this new context, the court decisions in Frye and Lafler's cases
posed new counterfactual questions regarding the hypothetical
actions of courts and prosecutors, creating in turn

new challenges

for courts. The courts have interpreted the malleable instructions
left by the Supreme Court in Lafler and Frye creating two (2)
distinctly different fundamental approaches. The first approach, in

9.

which courts require a defendant to affirmatively prove that the
prosecutor would have maintained an offered plea and that the trial
court would have accepted it, is referred to as the "burden" approach.
By contrast, courts using the "presumption" approach rely on the
fact that most plea offers are neither revoked by offering
prosecutors nor rejected by trial courts absent unusual circumstances
and presume that the defendant would have successfully obtained an
accepted plea agreeement.
In his dissent in Frye, Justice Scalia noted what he saw as
the underlying accuracy and fairness of the pleadings that led to
Mr. Frye's conviction and focused particular attention on the
challenges that the court's instructions on prejudice left behind.
Frye, 566 U.S. at 152-53. He decried the court's test as " a process
of retrospective crystal-ball gazing posing as a legal analysis."
Id. at 154. He concentrated criticism on the two new questions,
wherein courts "must

estimate whether the prosecution would have

withdrawn the plea offer [,] (a)nd... estimate whether the trial
court would have approved the plea agreement. Id. He argued,
"[v]irtually no cases deal with the standards for a prosecutor's
withdrawl from a plea agreement beyond stating the general rule
that a prosecutor may withdrawl anytime prior to, but not alter,
the entry of guilty plea" and cases addressing trial courts

I

authority to accept or reject plea agreements almost universally
observe that a trial court enjoys broad discretion. Id at 154.
As a result, in Justice Scalia's view, even after the
development of more substantial standards, significant discretion

10.

would- remain_and_thus_^make a defendant's constitutional rights
depend upon a series of retrospective mind-reading as to how that
discretion, in prosecutors and trial judges, would have been
exercised. Id.
Other Circuits agree with Justice Scalia's view: for example,
in Wanatee v. Ault, 259 F.3d 700 (8th Cir. 2001) the court held,
a defendant who

rejects a plea offer due to improper advice from

counsel may show prejudice sufficient to support ineffective
assitance of counsel claim even though he ultimately received a
fair trial; to establish prejudice under such circumstances,
defendant must show that he would have accepted the plea but for
counsel's advice, and that had he done so he would have received a
lessor sentence. Another example, in Arnold v. Thaler

630 F.3d

367 (5th Cir. 2010) the court held, "we...refuse to engraft onto
[the prejudice prong of] Strickland the requirement that

in

addition to demonstrating a reasonable probability that he would
have changed

his plea, a petitioner must demonstrate a reasonable

probability that the judge, in turn, would have accepted his plea.
A number of our sister circuits have similarly rejected such a
rule. Id.; and, also U.S. v. Rodriguez, 929 F.2d 747, 753 N.l (1st
Cir. 1991).
In particular, one must examine Frye and Lafler more closely
to see which approach "presumption" o£ "Burden" has vindicated (or
failed to vindicate) the court's attempt to protect a defendant's
right to effective counsel at the pleading stage.
The court's decision in Frye and Lafler left significant
uncertainty in their wake. The court defined two new counterfactual

11.

questions to be used in the prejudice prong for forgon

pleas:

first, whether a prosecutor would have revoked an offered and
accepted plea prior to entry, and second, whether a trial court
would approve

an

accepted and entered plea. In asking these new

questions, however, the court left sparse guidance for courts
below on how to actually answer these questions. The Court noted
in Frye that "[i]t can be assumed that in most jurisdictions
prosecutors and judges are familiar with the boundaries of
acceptable plea bargains...[i]t should not be difficult to make
an objective assessment as to whether or not a particular fact...
would suffice...to cause prosecutorial withdrawl or judicial
nonapproval..." Frye, 566 U.S. at 149-51. According to the Court,
the determination of a "reasonable probability that the outcome
of the proceedings would have been different absent counsel's
errors" should proceed through this framework. Id. at 149.
Now, one reading of the court's language suggests that the
Court's approach might find most offered pleas to be acceptable
to the court and the prosecutor. The court begins by noting the
actors in jurisdictions are likely to understand "the boundaries
of acceptable plea bargains." Id. at 149-51. Moreover, the court's
outline of the inquiry, searching for facts that would "suffice...
to cause prosecutorial withdrawl or judicial nonapproval of a plea
bargain," appears to imply a starting point of prosecutional
and judicial acceptance. The court also framed its analysis of the
case at hand by noting that, given the fact of Frye's intervening

12.

_add.i.t±ona 1 _ofiLe,n.s_e_prior. to the hearing at which the plea would have
been accepted, "there is reason to doubt" that the Prosecutor and
trial court would have maintained the plea agreement. Id. at 151.
Using this langauge, the court seems to suggest that in the typical
case

an absence of contrary facts might imply approval by a court

and offering prosecutor.
On the other hand, the court's langauge, can also be read as
placing an affirmative evdientiary burden on the defendant.
Foremost, the court does so by placing new showings of the prejudice
prong within the existing langauge of Strickland, stating that a
defendant must show " a reasonable probability neither the prosecution
not the trial court would have prevented the offer from being
accepted or implemented." Id. at 148. The court even emphasized that
such showing was of "particular importance" because defendants have
no right to be offered a plea agreement. Id. By choosing to situate
the new counterfactual questions within the existing Strickland
context in which defendants must bear the affirmative evidentiary
burden
to

the court arguably implied that defendants would be required

bear a similar burden in these novel contexts as well.
Hence, Mr. Dunkley argues that the 6th Circuit's "burden"

approach as applied to his case is unfair, and the "presumption"
approach best engenders the fundamentally fair proceedings that
Frye and Lafler decisions aspire to facilitate.
Specifically, a presumption in favor of relief for the
defendant, rather than an affirmative evidentiary burden, is
better for several distinct reasons. First, on a pragmatic level,

13.

information and resource asymmetries between defendants and state
prosecutors mean that prosecutors will generally be far more able
to prove that a given plea offer would have been revoked or rejected
by the court than a defendant

will be able to prove that it would

have been accepted. A rebuttable presumption would not provide an
automatic guarantee of relief for defendants but would instead only
demand information from prosecutors rather than defendants. Second,
the effects of trial and conviction, when viewed by an adjudicating
court through hindsight, produce prejudice against the defendant
and warrants a presumption in the defendant's favor. Third, the
right to effective assistance of counsel is a fundamental right,
and its protections is critical for our system of justice.
Protecting this right is especially key in the increasingly central
arena of negotiated plea agreements.
In sum, in Frye and Lafler, the Supreme Court emphasized that
our criminal justice system is one predominated by guilty pleas.
The statistics bear out this conclusion. In crafting protections
for defendants at the pleading stage, however, the court left
substantial leeway for lower federal courts to decide how functional
such protections would be in practice. Whereby, we now need to
examine the effects of Frye and Lafler in practice, interpretation
of the counterfactual prejudice questions, between a presumption
approach favoring defendants in the absence of countervailing
evidence, and a burden approach that creates substantial hurdles
for defendants. Courts that place an affirmative evdientiary

14.

burden on defendants to prove the counterfactual acts of judges
and prosecutors, though following

a reasonable interpretation

of the court's text in both decisions, erect a system that makes
relief for even meritorious claims so difficult that it fails
to fulfill the spirit of the two decisions.
Thus, the decision of the Sixth Curcuit,in this case, is
in conflict with the decision of other circuits, and violates
the Petitioer's constitutional right to due-process. Further,
the Sixth Circuit should adapt the other Circuits presumption
approach that recognizes the importance of counsel in the central
arena of plea bargaining.

CONCLUSION
For these reasons, a Writ of Certiorari should issue to
review the judgment and opinion of the Sixth Circuit Court of
Appeals.

Respectfully submitted by,

o

Brian Dunkley, 487273
BCCX, Site 2, Unit 5
1045 Horsehead Rd.
Pikeville, TN. 37367

v

15.

